<html>
<title> - TIME CHANGE: THE IMPACT OF THE COVID 19 CRISIS ON UNIVERSITY RESEARCH</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                        TIME CHANGE: THE IMPACT
                         OF THE COVID	19 CRISIS
                         ON UNIVERSITY RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2020

                               __________

                           Serial No. 116-79

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                              ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
41-311 PDF            WASHINGTON : 2021        
 
 
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                         C  O  N  T  E  N  T  S

                           September 9, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

Dr. Joseph Walsh, Interim Vice President for Economic Development 
  and Innovation, University of Illinois System
    Oral Statement...............................................    16
    Written Statement............................................    19

Dr. David Stone, Vice President for Research, Oakland University
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Theresa Mayer, Executive Vice President for Research and 
  Partnerships, Purdue University
    Oral Statement...............................................    53
    Written Statement............................................    55

Mr. Ryan Muzzio, Physics Ph.D. Student, Carnegie Mellon 
  University
    Oral Statement...............................................    65
    Written Statement............................................    67

Discussion.......................................................    84

             Appendix I: Answers to Post-Hearing Questions

Dr. David Stone, Vice President for Research, Oakland University.   102

Dr. Theresa Mayer, Executive Vice President for Research and 
  Partnerships, Purdue University................................   104

            Appendix II: Additional Material for the Record

Letter submitted Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   108


                        TIME CHANGE: THE IMPACT

                         OF THE COVID-19 CRISIS

                         ON UNIVERSITY RESEARCH
                               ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2020

                  House of Representatives,
            Subcommittee on Research and Technology
                Committee on Science, Space, and Technology
                                                   Washington, D.C.

     The Subcommittee met, pursuant to notice, at 11:30 a.m., 
via Webex, Hon. Haley Stevens [Chairwoman of the Subcommittee] 
presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Stevens. Well, this hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. And, before I deliver my opening remarks, I do want 
to note the circumstances that we find ourselves in today, in 
which we are meeting pursuant to House Resolution 965 today, 
the Subcommittee on Research and Technology on the House 
Science, Space, and Technology Committee is meeting virtually, 
and I want to announce a couple of reminders to the Members, 
our House Members, about the conduct of today's remote hearing. 
First, Members should keep their video feed on for as long as 
they are present in the hearing, and Members are also 
responsible for their own microphones, just as if we were in 
the room together, and so please keep your microphones muted 
unless you're speaking. And, finally, if Members have documents 
they wish to submit for the record, please e-mail them to the 
Committee Clerk, whose e-mail address was circulated to your 
offices prior to today's hearing.
     It certainly is nice to see everyone here today, and so 
good morning, and welcome to our distinguished panelists. 
Certainly want to give a special welcome to Dr. David Stone 
from Oakland University (OU), one of the prides of Michigan's 
11th District, and, you know, the university's certainly a 
special place, but all of represent and come from special 
institutions and jurisdictions which are critical to this 
country's research fabric. We're here today to discuss the 
impact of COVID-19 on innovation as it relates to our academic 
system. We're here to discuss the disruptions brought on by 
COVID-19 into our research efforts.
     As we all know, federally funded research conducted on 
university campuses across the Nation is certainly a critical 
driver of our country's innovation, economic development, 
pairing with the private sector and government partners to jump 
start new technology and scientific breakthroughs. The COVID-19 
crisis sent shockwaves through this ecosystem very early on, 
particularly given some of the disruptions that were brought on 
from needing to social distance, and also end school years 
early. University administrators, research facility managers, 
faculty, post-docs, and students are still reeling from some of 
the profound disruptions to their work, and still making their 
way to adapt amid persistent uncertainty, and the duration of 
how long this pandemic will go on.
     In the early days of the COVID-19 pandemic--we're now 
saying early days--universities stepped up in a big way to help 
us combat the disease. Many institutions reconfigured their 
laboratories for COVID-19 related research, and donated masks, 
gloves, and other personal protective equipment (PPE) to 
hospitals and first responders, part of the remarkable supply 
chain recovery efforts that we saw take place throughout this 
great Nation. I remain concerned and alarmed that our Federal 
Government is just not stepping up to its end of the bargain, 
and that's part of what we're here to discuss today.
     In the absence of, you know, a complete and holistic 
national strategy to mitigate the spread of the virus, 
universities have been faced with difficult decisions about the 
fall semester. Many institutions find themselves in danger of 
incredible financial disruption, and even, in some cases, ruin, 
which is things that we are, you know, starting to hear from 
stakeholders across the country. Universities are being 
squeezed on both sides with a significant loss of revenue, and 
unanticipated costs of cleaning up their campuses, providing 
that PPE, developing their own testing and contact tracing 
technologies, and ramping down and restarting their research 
programs, as well as the virtual learning environment. And, 
boy, wouldn't it be nice to have some financial assistance or 
grant dollars made available to all of you, because you're 
certainly best in class examples. Many universities, for 
instance, had to implement hiring freezes, and the near-term 
impact on the research workforce is worrying, and will be long 
lasting if we don't find solutions.
     The impacts to our wider STEM (science, technology, 
engineering, and mathematics) pipeline could also be quite 
devastating, and it's certainly troubling from the place which 
we're sitting right now. Undergraduate students are missing out 
on critical hands-on training. Graduate students are worried 
that there won't be funding for them to finish their research 
projects, I can't even imagine, and even raising some questions 
about graduating. So post-docs and other early career 
researchers are also searching for jobs in a severely 
contracted academic job market when we want those bright 
research minds on the forefront of innovation, and in high 
demand for their talents and research abilities at universities 
across the United States. Early data indicate that the impacts 
of these challenges are more pronounced for women and other 
groups historically underrepresented in STEM, which in and of 
itself is quite unfortunate, and troubling, and something I 
hope that today's hearing also touches on.
     So, Chairwoman Johnson, and Ranking Member Lucas, and 
several Members of this Committee have been a part of 
championing two bipartisan bills which propose a great 
approach, a bold approach, to meeting the urgent needs to help 
universities and academic researchers recover from this crisis. 
The RISE Act, which authorizes $26 billion in emergency relief 
funding for science agencies to support full cost extension of 
research grants so that we don't literally lose years of 
research. This goes beyond just a general disruption. This is a 
sustained period that we're operating in, and the RISE Act 
certainly gives us a lot of hope and potential. We're really 
proud of that legislation. And then the Supporting Early Career 
Researchers Act creates a $250 million fellowship program at 
the National Science Foundation (NSF). I'm so proud of the NSF, 
and the work that they have been doing, and we want to, 
obviously, continue to support that. So with the Supporting 
Early Careers Researchers Act, the National Science Foundation 
will be able to keep recent Ph.D. recipients in the STEM 
pipeline.
     And I certainly look forward to hearing from our panelists 
about their experiences navigating these new challenges that 
have been thrown their way, and the challenges posed to 
innovation presented by the COVID-19 crisis, and the need for 
getting back to the research enterprise, and getting back on 
track.
     [The prepared statement of Chairwoman Stevens follows:]

    Good morning and welcome to our distinguished panelists. 
I'd like to give a special welcome to Dr. David Stone from 
Oakland University, the pride of Michigan's 11th district.
    We are here to discuss the impact of the COVID-19 crisis on 
innovation as it relates to our academic research system. We 
all know that federally funded research conducted on university 
campuses across the nation is a critical driver of U.S. 
innovation and economic development, pairing with private 
sector and government partners to jumpstart new technology and 
scientific breakthroughs.
    The COVID-19 crisis sent shock waves through this critical 
ecosystem. University administrators, research facility 
managers, faculty, postdocs, and students are all reeling from 
the profound disruptions to their work and struggling to adapt 
amid persistent uncertainty about how long this crisis will 
last.
    In the early days of the pandemic, universities stepped up 
in a big way to help us combat the disease. Many institutions 
reconfigured their laboratories for COVID-related research and 
donated masks, gloves, and other personal protective equipment 
to hospitals and first responders.
    I am deeply concerned that the federal government has yet 
to hold up its end of the bargain. In the absence of a national 
strategy to mitigate the spread of the virus, universities are 
faced with difficult decisions about the Fall semester.
    Many institutions find themselves in real danger of 
financial ruin. Universities are being squeezed from both 
sides, with a significant loss of revenue and unanticipated 
costs of cleaning their campuses, providing PPE, developing 
their own testing and contact tracing technologies, and ramping 
down and restarting their research programs as well as the 
virtual learning environments.
    Many universities have had to implement hiring freezes. The 
near-term impact on the research workforce is worrying and will 
be long-lasting if we don't find solutions.
    The impacts to our wider STEM pipeline could be 
devastating. Undergraduate students are missing out on critical 
hands-on training. Graduate students are worried there won't be 
funding for them to finish their research projects and 
graduate. Post-docs and other early-career researchers are 
desperately searching for jobs in a severely contracted 
academic job market.
    Early data indicate that the impacts of these challenges 
are more pronounced for women and other groups historically 
underrepresented in STEM.
    Chairwoman Johnson, Ranking Member Lucas, and several 
Members of this Committee have championed two bipartisan bills 
which propose a bold approach to meeting the urgent needs to 
help universities and academic researchers recover from this 
crisis.
    The RISE Act authorizes $26 billion in emergency relief 
funding for science agencies to support full-cost extensions of 
research grants so that we don't lose literally years of 
critical research.
    The Supporting Early-Career Researchers Act creates a new 
$250 million fellowship program at the National Science 
Foundation to help keep recent Ph.D. recipients in the STEM 
pipeline.
    I look forward to hearing from our panelists about their 
experiences navigating the unprecedented challenges to 
innovation presented by this crisis and the needs for getting 
our research enterprise back on track.

     Chairwoman Stevens. So, with that, the Chair, myself, I'm 
going to recognize Dr. Baird now, our Ranking Member, for an 
opening statement. Dr. Baird, I'll pass it over to you.
     Mr. Baird. Thank you, Chairwoman Stevens, and thank you 
for holding today's hearing. All of us here on this Committee, 
I think, recognize the critical role that the universities play 
in America's research enterprise, and they really are the 
largest performer of basic research, which drives scientific 
and technological discovery, in this country. They play a 
significant role in regional and national economic development 
by spurring countless startups and patent grants in a number of 
industry. And they educate and train our STEM workforce of 
tomorrow that will be critical for our future, and to stay 
competitive.
     So, over the last six months, our research universities 
have faced one of the greatest disruptions they have ever 
experienced due to the COVID-19 pandemic, and yet they have 
played a critical role in addressing the pandemic by conducting 
research and development to detect, defend, and eventually 
defeat this COVID-19. For example, Purdue University, my alma 
mater, researchers are working on developing a handheld paper 
diagnostic device that will make COVID-19 detection fast, easy 
to use, and portable.
     While COVID-19 related research has permitted us to 
continue, tens of thousands of other labs across the country 
have been forced to close or severely reduce their operations. 
Throughout this summer research institutions have been taking 
the tremendous task of planning for how to safely reopen and 
operate their research facilities, and adhering to the proper 
social distancing practices is challenging in general, but it's 
especially challenging when you consider the tight, confined 
spaces laboratory work is traditionally conducted in. So I look 
forward to hearing from our witnesses today on how their 
campuses are dealing with these challenges and creating a ``new 
normal'' that allows the research enterprise on their campuses 
to rev back up.
     The restarting of the university research enterprise is 
particularly important to our future domestic STEM talent 
pipeline, especially early career researchers and post-docs. 
The limited access to laboratories has restricted the research 
that post-docs can complete, and, in some cases, causing their 
trajectories to change, and an uncertainty of when or if they 
would be able to complete their research and their degree on 
time. Additionally, because many universities have instituted 
hiring freezes, there's a great concern that many post-docs 
will have to leave academia to find a job in the near term, 
which will be extremely damaging to the U.S.'s domestic STEM 
talent and U.S. competitiveness. It is critical Congress takes 
steps to fight the threat of such a loss of STEM talent and 
brain drain.
     I would like to thank all of our witnesses, and I would 
make a special welcome to Dr. Mayer from Purdue University to 
taking the time to join us today, especially given it is the 
start of the school year, and I expect much more demanding than 
the start of a normal school year. So I look forward to hearing 
our testimonies, and having a productive session. I yield back.
     [The prepared statement of Mr. Baird follows:]

    Thank you, Chairwoman Stevens, for holding today's hearing. 
All of us on this Committee know the critical role our 
universities play in America's research enterprise.
    They are the largest performers of basic research, which 
drives scientific and technological discovery in this country. 
They play a significant role in regional and national economic 
development, spurring countless start-ups and patent grants in 
a number of industries. And they educate and train our STEM 
workforce of tomorrow, which will be critical to our future 
competitiveness.
    Over the last six months, our research universities have 
faced one of the greatest disruptions they have ever 
experienced due to the COVID-19 pandemic. And yet, they have 
played a critical role in addressing the pandemic by conducting 
research and development to detect, defend, and eventually 
defeat COVID-19.
    For example, at Purdue University, researchers are working 
on developing a handheld paper diagnostic device that will make 
COVID-19 detection fast, easy-to-use, and portable thanks to 
the inherent properties of paper. While COVID-19 related 
research was permitted to continue, tens of thousands of other 
labs across the country were forced to close or severely reduce 
their operations.
    Throughout this summer, research institutions have been 
taking on the tremendous task of planning for how they can 
safely reopen and operate their research facilities. Adhering 
to proper social distancing practices is challenging in 
general, but especially when you consider the tight, confined 
spaces laboratory work is traditionally conducted in. I look 
forward to hearing from our witnesses today on how their 
campuses are dealing with these challenges and creating a ``new 
normal'' that allows the research enterprise on their campuses 
to rev back up.
    Restarting the university research enterprise is 
particularly important to our future domestic STEM talent 
pipeline, especially early-career researchers and postdocs. The 
limited access to laboratories has restricted the research that 
postdocs can complete, in some cases causing their trajectories 
to change and creating uncertainty of when or if they will be 
able to complete their research and degree on time. 
Additionally, because many universities have instituted hiring 
freezes, there are great concerns that many postdocs will have 
to leave academia to find a job in the near term, which will be 
extremely damaging to the US's domestic STEM talent and U.S. 
competitiveness. It is critical Congress takes steps to fight 
the threat of such a loss of STEM talent and ``brain drain.''
    I would like to thank all of our witnesses for taking the 
time to join us today, especially given it is the start of the 
school year and I expect, much more demanding than the start of 
a normal school year. I look forward to hearing your 
testimonies and a productive discussion.
    I yield back the balance of my time.

     Chairwoman Stevens. Thank you, Dr. Baird. And, with that, 
the Chair now recognizes our Chairwoman of the Full Committee, 
Chairwoman Johnson, for an opening statement.
     Chairwoman Johnson. Thank you very much, Chairwoman 
Stevens, and thanks to Ranking Member Baird for holding this 
hearing, and thanks to all of our distinguished panelists for 
joining us today. The Nation is in a crisis on many fronts. Due 
to the unprecedented lack of firm guidance, nearly 200,000 
Americans have died from the COVID-19 pandemic. Millions of 
American children are hungry. Countless Americans have no safe 
place to live, and our very democracy is at stake.
     In the midst of all these crises, it may be hard to think 
about our future, and it may be even harder to convince our 
colleagues, and the American people, of the urgent need to help 
rescue our universities, and, by doing so, help to rescue our 
future. And yet, that is what we are here today to discuss, for 
even now we cannot afford to ignore it. Even as China looms 
large as a competitor, and many other nations have strong 
science and technology capacity, U.S. universities continue to 
lead the world in cultivating the next generation of STEM 
talent, and serving as an engine for our economy. I believe 
that our universities can do more to recruit and nurture all 
talent, no matter their gender, race, disability, or other 
background, and I'm pleased that Ranking Member Lucas has 
joined me in pursuing many efforts to address diversity and 
inclusion in STEM education and research. While I will continue 
my own efforts to address these disparities, I remain confident 
that the American universities have the essential ingredients 
to carry our Nation into a healthy, secure, and prosperous 
future.
     More than that, I believe we cannot have a healthy, 
secure, and prosperous future without our universities. This 
Nation is blessed with hundreds of excellent research 
universities that collectively serve the very diverse needs of 
our population and underpin our innovation economy. I am not 
suggesting that all--that even most of our universities' 
research is going to collapse due to the COVID-19 pandemic. I 
am, however, deeply concerned that many institutions may not 
survive, that years of important research will be lost, and 
that we will suffer irreparable harm to our talent pipeline. 
I'm especially concerned about the fallout from this pandemic 
undercutting the gains that we have made in diversity, and 
diversifying our STEM pipeline, including the geographic 
diversity that will help communities across the Nation 
revitalize their economies in the coming years. We cannot allow 
that long term damage to happen. The stakes for our Nation are 
simply too high.
     For those reasons, I did not hesitate to join my 
bipartisan colleagues in the House co-sponsoring the RISE Act, 
despite the hefty price tag. I was also pleased to be joined by 
many colleagues on the Science, Space, and Technology Committee 
in introducing Supporting Early Career Researchers Act, which 
is focused specifically on keeping the best and brightest in 
research careers that they already worked so hard for. I hope 
my colleagues on both sides of the aisle will continue to join 
me in advocating for real funding for these two bills, and I 
thank you, and yield back.
     [The prepared statement of Chairwoman Johnson follows:]

    Thank you Chairwoman Stevens and Ranking Member Baird for 
holding this hearing, and thank you to our distinguished panel 
for joining us today. This nation is in crisis on many fronts. 
Due to an unprecedented lack of leadership, nearly 200,000 
Americans have died from the COVID19 pandemic, millions of 
American children are hungry, countless Americans have no safe 
place to live, and our very democracy is at risk.
    In the midst of all of these crises, it may be hard to 
think about our future. And it may be even harder to convince 
our colleagues and the American people of the urgent need to 
help rescue our universities, and by doing so, help rescue our 
future. And yet, that is what we are here today to discuss, for 
even now, we cannot afford to ignore it.
    Even as China looms large as a competitor, and many other 
nations have strong science and innovation capacity, U.S. 
universities continue to lead the world in cultivating the next 
generation of STEM talent and serving as an engine for our 
economy. I believe that our universities can do more to recruit 
and nurture all talent, no matter their gender, race, 
disability, or other background. And I am pleased that Ranking 
Member Lucas has joined me in pursuing many efforts to address 
diversity and inclusion in STEM education and research. While I 
will continue my own efforts to address these disparities, I 
remain confident that American universities have the essential 
ingredients to help carry our nation into a healthy, secure, 
and prosperous future. More than that, I believe we cannot have 
a healthy, secure, and prosperous future without our 
universities.
    This nation is blessed with hundreds of excellent research 
universities that collectively serve the very diverse needs of 
our population and underpin our innovation economy. I am not 
suggesting that all or even most of our university-based 
research is going to collapse due to the COVID-19 pandemic. I 
am, however, deeply concerned that many institutions may not 
survive, that years of important research will be lost, and 
that we will suffer irreparable harm to our talent pipeline. I 
am especially concerned about the fallout from this pandemic 
undercutting the gains we have made in diversifying our STEM 
pipeline, including the geographic diversity that will help 
communities across the nation revitalize their economies in the 
coming years. We cannot allow that long-term damage to happen--
the stakes for our nation are too high.
    For those reasons, I did not hesitate to join my bipartisan 
colleagues in the House in cosponsoring the RISE Act, despite 
its hefty price tag. I was also pleased to be joined by many 
colleagues on the Science, Space, and Technology Committee in 
introducing the Supporting Early Career Researchers Act, which 
is focused specifically on keeping the best and brightest in 
research careers that they have already worked so hard for. I 
hope my colleagues on both sides of the aisle will continue to 
join me in advocating for real funding for those two bills.
    Thank you and I yield back.

     Chairwoman Stevens. Thank you, Madam Chair. And now the 
Chair recognizes Ranking Member Lucas for an opening statement.
     Mr. Lucas. Thank you, Chairwoman Stevens, for holding 
today's hearing to examine the challenges our academic research 
enterprise has faced during the COVID-19 pandemic. When the 
pandemic reached our shores, many researchers immediately 
pivoted to apply the knowledge and resources to fight this 
virus. Universities have devoted engineering departments to 3D 
printing personal protective equipment for front line workers. 
They've engineered inexpensive ventilators and self-sterilizing 
equipment for hospitals, and they've even repurposed the 
veterinarian labs to process COVID-19 tests.
     Unfortunately, even while doing this exceptional work, 
universities have also had to slow down, or entirely stop, 
other research that is non-essential to fighting COVID-19. 
Social distancing, travel restrictions, campus closures have 
forced many researchers to stop their work. There are 
tremendous costs to halt in research. First, we lose the 
scientific knowledge and technology development that would've 
been gained from this work. Second, we face economic 
consequences. According to the IRS data, American universities 
used research funds to pay more than 560,000 people on campuses 
across the country Fiscal Year 2018 to 2019. And, third, we 
could slow our scientific progress for years to come because of 
the damage being done to our STEM pipeline. We know it will 
take time and financial resources to get the research 
enterprise back up on its feet, but if we do not provide the 
resources now, we'll be limiting our ability to support new and 
innovative research, and forced to play catch-up to our foreign 
competitors, like China.
     That's why I'm a proud co-sponsor of ``the Research 
Investment to Security the Economy Act.'' It will help ensure 
that our research sector recovers from the current challenges, 
and continues to thrive even after the pandemic subsides. The 
``RISE Act'' authorizes approximately $26 billion in emergency 
relief that Federal science agencies will award to research 
universities, independent institutions, and national 
laboratories to continue working on federally funded research 
projects. This funding will allow us to continue to support the 
critical research we need to keep progressing as a nation.
     Along with the ``RISE Act,'' we have ``the Supporting 
Early Career Researchers Act,'' a bipartisan bill led by 
Chairwoman Johnson and Congressman Mike Garcia. This bill 
creates a fellowship program at the National Science Foundation 
for post-doc researchers who are unable to continue their 
research at universities due to COVID-19. By allowing graduate 
students and post-docs to stay in research, rather than leaving 
to find other employment, these bills will help preserve our 
STEM workforce so we don't lose out on years of discoveries. As 
we fight to keep America safe, healthy, and economically stable 
during this pandemic, there's one certainty, our success 
depends on science. I look forward to hearing from our 
witnesses today about their experiences, the lessons they've 
learned, and the recommendations they have for how Congress can 
invest in American research and technology to overcome future 
pandemics and scientific challenges. Thank you, and I yield 
back the balance of my time.
     [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Stevens, for holding today's hearing 
to examine the challenges our academic research enterprise has 
faced during the COVID-19 pandemic.
    When the pandemic reached our shores, many researchers 
immediately pivoted to apply their knowledge and resources to 
fight this virus. Universities have devoted engineering 
departments to 3D printing personal protective equipment (PPE) 
for frontline workers. They have engineered inexpensive 
ventilators and self-sterilizing equipment for hospitals. And 
they have even repurposed veterinary labs to process COVID-19 
tests.
    Unfortunately, even while doing this exceptional work, 
universities have also had to slow down or entirely stop other 
research that is non-essential to fighting COVID-19. Social 
distancing, travel restrictions, and campus closures have 
forced many researchers to stop their work.
    There are tremendous costs to this halt in research:
    First, we lose the scientific knowledge and technological 
development that would be gained from this work.
    Second, we face economic consequences. According to IRS 
data, American universities used research funds to pay more 
than 560,000 people on campuses across the country in fiscal 
year 2018-2019.
    And third, we could slow our scientific progress for years 
to come because of the damage being done to our STEM pipeline.
    We know it will take time and financial resources to get 
the research enterprise back up on its feet. But if we do not 
provide the resources now, we will be limiting our ability to 
support new and innovative research, and forced to play catch 
up to our foreign competitors like China.
    That's why I am a proud cosponsor of the Research 
Investment to Secure the Economy (RISE) Act. It will help 
ensure that our research sector recovers from the current 
challenges and continues to thrive even after the pandemic 
subsides. The RISE Act authorizes approximately $26 billion in 
emergency relief that federal science agencieswill award to 
research universities, independent institutions, and national 
laboratories to continue working on federally funded research 
projects. This funding will allow us to continue to support the 
critical research we need to keep progressing as a nation.
    Along with the RISE Act, we have the Supporting Early 
Career Researchers Act--a bipartisan bill led by Chairwoman 
Johnson and Congressman Mike Garcia. This bill creates a 
fellowship program at the National Science Foundation for 
postdoctoral researchers who are unable to continue their 
research at universities due to COVID-19.
    By allowing graduate students and post-docs to stay in 
research rather than leaving to find other employment, these 
bills will help us preserve our STEM workforce, so we don't 
lose out on years of discoveries.
    As we fight to keep America safe, healthy, and economically 
stable during this pandemic, there is one certainty: our 
success depends on science.
    I look forward to hearing from our witnesses today about 
their experiences, the lessons they've learned, and the 
recommendations they have for how Congress can invest in 
American research and technology to overcome future pandemics 
and scientific challenges

     Chairwoman Stevens. Thank you, Ranking Member Lucas, and 
if there are any other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point. And, at this time, I'd like to introduce our 
witnesses.
     Our first witness is Dr. Joseph Jay Walsh. Dr. Walsh is 
the Interim Vice President for Economic Development and 
Innovation for the University of Illinois System, a position he 
has held since May of this year. Prior to his position in the 
University of Illinois System, Dr. Walsh was a faculty member 
and administrator for more than 30 years at Northwestern 
University. Dr. Walsh currently serves on the Board of 
Directors at MxD (Manufacturing x Digital), and the Board of 
Governors at Argonne National Laboratory, among others, and 
previously served on the Board of Directors at Fermi National 
Laboratory, the Illinois Governor's Innovation Council, the 
Naval Research Advisory Committee, and the U.S. Secretary of 
Navy Advisory Panel.
     Following from Dr. Walsh is Dr. David Stone. Dr. Stone is 
the Vice President for Research at Oakland University in 
Michigan, where he is also a Professor of Public Health, and a 
Professor of Philosophy. Dr. Stone has previously taught and 
conducted research at Harvard Schools of Medicine and Public 
Health, Tufts University School of Medicine, Sheffield 
University in the U.K., and Northern Illinois University. Dr. 
Stone's recent scholarship focuses on the nature of 
interdisciplinarity, and takes a transdisciplinary approach to 
public health, education, and research development. He has also 
served as an American Council on Education Fellow, as President 
of the National Organization of Research Development Fellows, 
and is a member of the charter class of NORDP Fellows.
     Our third witness is Dr. Theresa Mayer. Dr. Mayer is the 
Executive Vice President for Research and Partnerships at 
Purdue University. In this role she oversees the University's 
research enterprise, and supports engagements with Federal, 
industry, and global strategic partnerships. Prior to her role 
at Purdue, she served as Vice President for Research and 
Innovation at Virginia Tech, and in a number of roles at Penn 
State University, including Associate Dean for Research and 
Innovation and Engineering, the Site Director of the NSF 
National Nanotechnology Infrastructure Network, and Director of 
the Materials Research Institute Nanofabrication Laboratory. 
Dr. Mayer is also a member of the U.S. President's Council of 
Advisors on Science and Technology, otherwise known as PCAST, 
and a Fellow of the Institute for Electrical and Electronics 
Engineers.
     Our final witness is Mr. Ryan Muzzio. Mr. Muzzio is 
currently pursuing a Ph.D. in Physics at Carnegie Mellon 
University, where his research focuses on the electronic 
properties of novel materials and devices in the 2D regime by 
utilizing nano-scaled angle resolved photoemissions and device 
fabrication. Mr. Muzzio is also serving as a student volunteer 
on Carnegie Mellon's Equity, Diversity, and Inclusion 
Committee. This is just an amazing panel. I feel like we could 
spend--witnesses, I feel like we could have testimonies 
individually, and hearings about what each of you have 
dedicated your careers to, so thank you so much for your time 
today with this Science Committee.
     Our witnesses should know you're each going to get 5 
minutes for spoken testimony, and your written testimony--which 
these testimonies, folks, are fabulous, OK? I mean, there's 
addendums, they're graphs. They're doing research on the 
research. It's--this is an amazing moment in time. So your 
written testimonies are going to be included in the record for 
the hearing, and when you've completed your spoken testimonies, 
we're going to begin with questions, and each Member is going 
to have 5 minutes to question the panel. And I know we've got a 
lot of fabulous Members of Congress here. We're all chomping at 
the bit to have this conversation, have this hearing, talk 
about our legislation. And we're going to begin with our first 
5-minute testimony, we've got the clock buzzing in the 
background here, with--we're going to hear from Dr. Walsh. And 
so, with that, Dr. Walsh, we'll begin with you.

                 TESTIMONY OF DR. JOSEPH WALSH,

        INTERIM VICE PRESIDENT FOR ECONOMIC DEVELOPMENT

         AND INNOVATION, UNIVERSITY OF ILLINOIS SYSTEM

     Dr. Walsh. Thank you, Chairwoman Stevens, Ranking Member 
Baird, and Members of the Subcommittee. Thank you for inviting 
me to testify, and for holding this timely and important 
hearing. You asked about the impacts of the COVID-19 crisis on 
the research enterprise, and steps Congress can take in 
response. In brief, the impacts have been, and could continue 
to be, significant, disrupting productivity, the careers of 
students and post-docs, and the development of new technologies 
that drive the economy. Strong Federal assistance, including 
passage of the RISE Act, is needed to help prepare--repair the 
damage to America's research universities and researchers. In 
my written testimony I documented the challenges we face and 
the actions to take. Here I will focus on the pandemic's 
harmful impact on research, the consequences to the Nation's 
research infrastructure, the effects on our students and 
researchers, and the role the Federal Government can take going 
forward.
     Research universities train students, produce graduates, 
and conduct research that leads to new knowledge. They also 
provide the infrastructure that serves as the backbone for the 
Nation's research and development enterprise. The resulting 
outputs drive U.S. economic prosperity, and are the foundation 
for the country's health, well-being, and national security. In 
their role as researchers, every faculty member at a research 
university should be viewed as the sole proprietor of a small 
business, a research group. Each is an entrepreneur striving to 
produce two key products, new knowledge and graduates.
     The impact of the pandemic for these small business 
owners, the researchers, has been significant. In March, to 
protect health and safety, most universities shut down on-
campus operations. By most estimates, in the early spring of 
2020, approximately 80 percent of all research was 
significantly slowed or stopped. One key exception was research 
into solutions to address COVID-19. As the pandemic raged, our 
faculty and staff developed new diagnostics, manufactured PPE, 
and developed models and systems to understand and mitigate the 
spread of the virus. In late spring university researchers 
cautiously started returning to campus, and, as we entered late 
summer, most on-campus labs are operational, but with social 
distancing limiting the number of researchers in a lab space, 
vital person-to-person exchanges are disrupted, as is the 
research training of students and post-docs in the discovery of 
new knowledge.
     The pandemic's disruptions have also extended to essential 
research infrastructure. Nearly every researcher uses core 
university research facilities with shared scientific 
instrumentation. This is an efficient and effective aspect of 
the U.S. research enterprise. The financing of these core 
facilities comes from fees paid from grants by users. For 
example, when a grad student uses an electron microscope to 
study the spiky surface of a virus, grant funds are used to pay 
the costs of using that microscope. During the pandemic, 
researchers are not using these facilities at pace, user fees 
are not being collected, and thus university funds must be used 
to maintain facilities. This is not sustainable, particularly 
at universities that are already struggling to cover the many 
other costs associated with the pandemic.
     While its impact has been broad, the pandemic has been 
particularly harmful to certain categories of researchers. In a 
study I co-authored recently in Nature, we found that 
scientists with young children experienced a substantial 
decline in productivity. This burden falls on early career 
researchers, and disproportionately on women.
     Today, maintaining the momentum of research, indeed 
accelerating our activities, when we are in a war against the 
disease, is our challenge and our opportunity. Strong and 
timely Federal actions are needed to ensure that the U.S. 
maintains its prominent global position in research, and that 
research universities can continue to provide answers and 
opportunities for citizens at this crucial time in history. 
Without supplemental funding from Congress for relief, Federal 
research agencies will be forced to choose between abandoning 
new research opportunities of national importance, or 
discontinuing research projects that are not yet completed, 
thus failing to maximize the return of Federal dollars already 
invested. Either approach will slow discovery and innovation, 
and jeopardize a generation of scientists and engineers crucial 
to America's innovation capacity and economic competitiveness 
for years to come. Passage of the RISE Act and Supporting Early 
Career Researchers Act will help propel our researchers and our 
Nation forward. I thank you for your time, and look forward to 
your questions.
     [The prepared statement of Dr. Walsh follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
     
    
     Chairwoman Stevens. And next up is Dr. David Stone.

          TESTIMONY OF DR. DAVID STONE, VICE PRESIDENT

                FOR RESEARCH, OAKLAND UNIVERSITY

     Dr. Stone. Good afternoon, Chairwoman Stevens, Ranking 
Member Baird, and Members of the Subcommittee. Thank you for 
allowing me to address you today. Oakland University sits 
proudly in Chair Stevens's district, and provides 
undergraduate, graduate, professional, and medical education to 
about 19,000 students, who come largely from the surrounding 
counties in Southeast Michigan. Oakland is classified as a 
Research II University, and does provide doctoral training in 
physical sciences and engineering that is supported by Federal 
research funding. But for the purposes of my comments today, 
Oakland is representing, and speaking to the challenges of, the 
nearly 400 public universities around the Nation that are 
neither State flagship nor land grant institutions. These 
regional universities, which include many historically Black 
and Hispanic-serving institutions, are the backbone of U.S. 
science, engineering, and technologies workforce pipeline. We 
accomplish this by providing meaningful research experiences to 
our undergraduate students that engage them directly with 
faculty in solving real problems and committing--contributing 
to the scientific record by publishing their results. As such, 
we serve as the launching pad for the majority of STEM 
students, including the underrepresented minority students and 
first-generation college students who bring a diversity of 
experiences, perspectives, and goals to our science and 
engineering workforce.
     In general, the effects of COVID--of the COVID-19 pandemic 
on Oakland University, and other regional universities, mirrors 
what you've already heard in terms of disruptions, delays, and 
added costs of agency-funded research. At this point only a 
third of Oakland University's funded researchers and students 
are back in the labs. To give an example, we have a 30-year NIH 
(National Institutes of Health) funded study of DNA damage, 
which is important to long term space flight. When these highly 
productive faculty restarted preparations for their next 
experiment at the National Supercomputing--sorry, National 
Superconducting Cyclotron at Michigan State, they quickly 
realized that the only person on their team who knew how to 
fabricate their nanoparticle samples, one Mr. Alex Stark, was 
an undergraduate, who was not allowed back in the lab. The 
principal investigator petitioned me to make an exception, but 
I could not contravene the Governor's executive order. In the 
end, this high-powered team had to wait six more very 
unproductive weeks to get their expert undergraduate back in 
the lab.
     The pandemic has imposed a different set of challenges on 
Oakland University and other regional universities than just 
traditional research grant funding. Support for the high impact 
practice of undergraduate research, which we know contributes 
to retention and graduation in STEM, and to sustaining the 
science and engineering workforce pipeline, comes largely from 
the university's general fund, which is derived primarily from 
two sources, tuition and State funding. The pandemic has put 
both in peril. OU already has incurred more than $25 million in 
direct losses to the costs of the pandemic. The State also just 
imposed an 11 percent reduction on our State funding for this 
year, and prospects look grim for the next two. Here's an 
example of what's at stake. Oakland University's world-renowned 
Eye Research Institute runs a summer research program that is 
funded through our State appropriation. Our super program has 
trained 100 undergraduates over the last 20 years. In the early 
2000's an undergraduate named Cristina Kapustij conducted 
vision research in the Eye Research Institute and co-authored a 
scientific paper. She went on to attend law school at 
Georgetown, serve as a congressional Health Fellow for 
Representative John Dingell, and is currently chief of policy 
and program analysis at the National Human Genome Research 
Institute. Such is the impact of high-quality State supported 
undergraduate research programs.
     This combination of operational losses and State budget 
cuts in Michigan and around the country will cripple our 
ability to provide undergraduate research opportunities, and do 
immediate and long-lasting damage to the science and 
engineering workforce pipeline. Oakland University fully 
supports the RISE Act so that agencies have the funds to help 
our investigators complete their research. We also support H.R. 
8044 to help our early career investigators keep their research 
careers on track. But it is imperative that research funding be 
distributed more widely. We all know that life circumstances 
distribute talent such that great ideas often come from 
unexpected places. This lesson should show us the value of 
distributing resources across the spectrum of institutions so 
that we imbue our science and engineering workforce pipeline 
with the full diversity of experiences, perspectives, talents, 
and goals.
     America must maintain a robust research enterprise and a 
healthy workforce pipeline. It is therefore imperative that you 
also complete a fourth stimulus that includes direct university 
funding, funding for the research agencies, and relief for 
State governments. Failure to do so will have a huge negative 
impact on our economy, on the workforce pipeline, and on the 
students across our country who have committed their lives and 
livelihoods to science. In that spirit, I ask each of you to 
support these proposals.
     [The prepared statement of Dr. Stone follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
     Chairwoman Stevens. Great. Thank you so much. And now 
we'll hear from Dr. Mayer.

                 TESTIMONY OF DR. THERESA MAYER,

             EXECUTIVE VICE PRESIDENT FOR RESEARCH

              AND PARTNERSHIPS, PURDUE UNIVERSITY

     Dr. Mayer. Chairwoman Johnson, Ranking Member Lucas, 
Subcommittee Chairwoman Stevens, Ranking Member Baird, and 
Members of the Subcommittee, thank you for the opportunity to 
testify to the Subcommittee today, and for your efforts to 
ensure the CARES Act included funding to help universities 
cover the significant costs associated with our ongoing 
response to the COVID-19 pandemic. We also greatly appreciate 
the flexibilities that Federal agencies have offered 
researchers during this national and global emergency. Our 70-
year partnership with the Federal Government has brought our 
national unparalleled success in basic research at the 
frontiers of science and transformative innovation in 
technology and medicine. Most importantly, it has built human 
capital. The--this academic talent, research, and tech transfer 
will be key in the emerging industries of the future, such as 
artificial intelligence (AI), quantum information science, 5G, 
advanced manufacturing, biotechnology, and others. Today I'm 
pleased to share the perspective I gained leading the COVID-19 
research response at Purdue, and through my collaboration with 
colleagues in the Big Ten academic alliance and beyond. For 
context, Purdue is the State of Indiana's comprehensive public 
land grant university, with over 2,200 faculty, 500 post-docs, 
and 45,000 students. More than 2/3 of the students graduate in 
STEM fields. Purdue is committed to affordability and 
accessibility, and has frozen tuition and fees for the last 8 
years. We rank as the 6th most innovative university in the 
U.S., and are in the top 25 in research expenditures among 
publics.
     In early March the Nation watched as universities flipped 
from residential to remote instruction in a matter of weeks. 
The impact on research has garnered less attention by the 
media. At Purdue the ramp down of on campus research to remote 
research whenever possible occurred over 3 weeks, and involved 
over 1,200 principal investigators, with 4,500 funded programs 
in 100 campus buildings, ag centers, and sites in all 92 
counties of Indiana. Travel restrictions severely limited field 
work and halted in person collaborations across the country and 
the world. Faculty shared comments such as, ``Fortunately, we 
were able to shift non-experimental work with the data we had 
in place.'' With a major shift to remote research, on campus 
critical research continued. For example, three of our faculty 
have been working together for years to develop therapeutics to 
fight coronaviruses. NIH is now funding pre-clinical trials to 
test their potential drug molecules on the SARS-COVID virus.
     In May Purdue implemented a return to operations plan. By 
the end of June, nearly all of our 1,200 campus research spaces 
and core labs were back online under modified operation. This 
translated to access for 7,000 researchers, including 370 post-
docs, more than 3,000 graduate students, and 400 undergrads. 
This number does not include researchers who continue to work 
entirely remotely. During this time Purdue also collaborated 
with Microsoft to create an online tool to quantify the impact 
on COVID on sponsor programs. Investigators responsible for the 
137 million in expenditures reported effort and financial loss. 
The aggregate for Purdue's entire portfolio is 11 percent, or a 
$15 million loss on total expenditures. Notably, 50 percent of 
the researchers who focus on computation, data science, and 
related activities reported little or no impact over this 
period. Of those impacted, 70 percent stated restriction access 
to facilities as the primary reason for the loss.
     The no cost time extensions afforded by the Federal 
agencies have been critical. One researcher shared, ``Federal 
sponsors have been very open to shifting deliverables and scope 
because they understand our situation.'' Other institutional 
losses for research included lost revenue for core labs, 
facility retrofits, enhanced PPE, testing and contract tracing, 
and others, are large, and measured in the tens of millions for 
Purdue alone. In addition to the short-term impact and losses, 
we expect that researchers will experience ongoing decreased 
productivity to reduce capacity and modified operations of 
labs, ongoing travel restrictions, absences due to illness, 
quarantine, gaps in childcare and school, and many other 
factors, what we call our new pandemic normal. There is also 
growing evidence that women and other underrepresented groups 
in STEM have been disproportionately impacted. The proposed 
bipartisan RISE Act, together with the Support for Early Career 
Research Act, would provide critical supplemental support 
needed to complete work that was directed--disrupted, and to 
extend education and training opportunities for early career 
researchers to mitigate the potential loss of our best and 
brightest STEM talent at this very critical time for the 
Nation. Thank you, and I look forward to the Q and A.
     [The prepared statement of Dr. Mayer follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
     Chairwoman Stevens. Thank you, Dr. Mayer. And now, Mr. 
Muzzio.

 TESTIMONY OF MR. RYAN MUZZIO, PHYSICS PH.D. STUDENT, CARNEGIE 
                       MELLON UNIVERSITY

     Mr. Muzzio. Thank you, Chairwoman Stevens, Ranking Member 
Dr. Baird, Congresswoman Johnson, Ranking Member Lucas, and the 
entire Subcommittee on Research and Technology, for giving me 
the opportunity to testify today. I'm an experimental physicist 
and a graduate student at Carnegie Mellon University. For the 
past 2 years my work was funded by the Department of Energy, 
and is currently funded by the National Science Foundation. I 
thank you all for supporting the mission of the Federal 
funding--research funding agencies. My doctoral research is 
aimed at designing materials as thin as a single layer of 
atoms, such as grafting, and studying and exploiting their 
properties for real world applications. This research involves 
in person operation of instrumentation in enclosed spaces with 
my collaborators at Carnegie Mellon, or the Lawrence Berkeley 
National Labs in Berkeley, California. My collaborators and I 
use the same tools, and at times need to be overlapping in 
space, using the same gloves and viewports on instrumentation. 
Today none of this work can take place without extreme caution 
to prevent the spread of COVID-19.
     Just last year I was at Berkeley National Labs learning 
how to operate a tool for my collaborators, who had made the 
trip to Denmark. This training is integral to my research and 
career development. Every year I prepare samples to learn and 
perform measurements there. However, due to the lab shutting 
down in March of this year, I have not been able to attend in 
person measurement sessions. My ultimate goal is to work at a 
national lab for an extended period of time, and missing these 
sessions impacts my chances of attending--or obtaining such a 
position. I've also missed opportunities to work and network 
with researchers at conferences.
     The pandemic has also drastically slowed my ability to 
perform research and make meaningful progress toward my Ph.D., 
and between March and May my work was constrained to performing 
only data analysis, and the process was very slow. Now, when I 
enter the lab, I must follow tedious, but essential, safety 
protocols, including donning PPE, minimizing the number of 
people in labs, and wiping down all of the surfaces that we 
touch. Social distancing has been difficult because we are 
building a new research instrument, which requires multiple 
people to work on it in close proximity. In person training is 
minimized too, slowing everybody's learning process.
     But what I bring to you today are my experiences of just 
one graduate student. There are--they are hardly representative 
of all of us, and many of us are living in multiple different 
realities with this virus. To adapt to operating remote 
instruction, we have had to take time away from our research. 
Students have been unable to run experiments, brainstorm, and 
collaborate due to the lack of in-person activities. Delays in 
graduation, hiring freezes that disrupt job searches, 
internships, and collaborations are lost. All of these stories 
are far too common. Disruptions in the academic job market have 
also come at a high cost for us, making it impossible for many 
of us to proceed to do--to proceed with research careers. And 
we're more than just researchers. We're a linchpin in the 
entire university system. We come from all over the world to 
conduct groundbreaking research, teach classes, mentor 
undergraduates, and without the support--without support, the 
United States loses--or risks losing a generation of talent 
forever, impeding the pace of innovation in the country, and in 
particular in our universities.
     That said, academic issues are not all that we are facing 
in this pandemic, as I have laid out in my written testimony. 
For instance, at Carnegie Mellon, students are using the food 
pantry at astonishing rates. Student parents have experienced 
the most challenging disruption, and have been forced to juggle 
their research and teaching responsibilities while parenting 
full time. International students are in particular in a 
difficult situation due to travel restrictions. One student 
lost both their father and grandmother during the pandemic, but 
could not travel home. Beyond this isolation, students have 
lived in uncertainty caused by sudden policy shifts, like the 
July 6 directive from ICE (Immigration and Customs 
Enforcement), requiring them to either attend in person class 
or leave the country. Two-thirds of the students at Carnegie 
Mellon are international, and many of them are the most 
talented individuals I work with.
     Ph.D. students report symptoms of--consistent with major 
depressive order--disorder at higher rates than ever before. 
Personally, my mental health has taken an impact from this 
pandemic because of the--because thoughts are constantly 
clouding my mind about whether my family, friends, or myself 
are going to--furthermore, being a Black man, I have been 
deeply affected by the ongoing national conversation about 
structural racism, and the calls for change through Black Lives 
Matter movement. All of this has taken significant troll--toll 
on me. We are not in a bubble.
     In closing, graduate school is something we do because we 
want to be here, to learn and to work with like-minded 
individuals, and to further our collective knowledge of the 
world. In the best of times it is intense, and we are not in 
the best of times. We need support now more than ever. I look 
forward to answering your questions, and hope you continue to 
hear directly from graduate students on the front lines of our 
Nation's research environment. Thank you, Madam Chairwoman.
     [The prepared statement of Mr. Muzzio follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
     
        
     Chairwoman Stevens. Well, thank you so much. Thank you to 
all of you, and, Ryan, thank you for that courageous and 
important testimony. We are now going to begin our first round 
of questions, and the Chair is going to recognize herself for 5 
minutes.
     We are here today to talk about the research and 
innovation directive of this Nation that is people-fueled by 
the universities and the research centers that exist throughout 
our country. And certainly today we've had the opportunity to 
really hone in on the role that innovation and economic 
development play as a cohesive force in communities and 
localities across this country. We know that we are at a crux. 
We know that we need to unlock the human capital, the talent, 
as well as the innovation dollars, the investment dollars. 
We've had this conversation before as a Committee in previous 
hearings, where we have been able to discuss and hone in on the 
principle of where the Federal Government comes in as a 
catalytic research partner.
     And, Dr. Stone, I really want to commend you for being so 
student-focused, and obviously it's very important that we had 
Ryan as one of our witnesses giving the background of the 
student voice, the student experience. And certainly, in your 
testimony, hearing about the Eye Research Lab at Oakland 
University, as well as some of the other recent student 
experiences that have taken place. And what I'd like to hone in 
on is something that this Committee focuses on, particularly in 
our role with the National Science Foundation, which is 
unlocking the Federal dollars to be of best use for the 
ultimate success of the research, and the outcomes of that 
research.
     And so, if you look at the grants, or the research awards 
that you're getting, one, I'm very interested to hear about the 
timeframe, and adjustments to the timeframe, and the 
flexibility. Two, the additional support that you might need 
for safety measures, or protocol, or adjusting to this current 
environment, and some of the uncertainty with the timeframe on 
that. And then three, Dr. Stone, if you don't mind, also--you 
can kind of combine this all into one, but I think what's so 
special about what's going on at Oakland University is 
something you touched on, being a smaller university that's not 
land grant, that's doing a lot with a little, and some of how 
you're existing today as a university with the measures that 
you put into place as a university to operate right now, or--
with the contact tracing, and some of the testing that you have 
going on at the university. And you get a whopping 2 minutes to 
answer, David.
     Dr. Stone. Thank you, Chair Stevens, and I might ask you 
to repeat the first part, since it didn't start as a question, 
but let me start with the time loss challenge. As I said, we 
are a research--we do do lots of funded research, NIH, NSF, DOD 
(Department of Defense), others, and the fact that this far 
into the pandemic, only about half our labs are back online at 
all, and only about 35 percent of our faculty and students who 
are normally paid on funded grants are active in their labs, is 
saying to us that the challenge here isn't simply replacing the 
2-1/2 or 3 months that we were out of our labs, it's that it's 
very difficult, and you heard this a bit from Ryan, to re-think 
about how you structure experiments that usually require people 
to stand right next to each other, or share a given instrument, 
to do that when they have to stay 6 feet apart. I mean, we have 
State rules that govern how we can practice research, and, in 
doing that, we're seeing that a lot of the research that we're 
trying to do is simply impossible with the old ways, and we 
haven't yet found the new ways. We are challenging ourselves 
every day to think about how can we do that experiment without 
violating State rules, without putting students and faculty at 
risk of COVID-19, which nobody wants.
     So as we think about the needs for the agencies to give us 
sort of what's been called, you know, for cost extensions, or 
full cost extensions, it isn't simply going to be for the time 
that was physically lost in the lab, it's going to need to also 
cover the challenges that we have in overcoming how you do 
research this way, because we can't do it, in many cases, in 
the old way. This is equally a challenge at OU. The reason I 
focused on the undergraduate pipeline is that that's critical, 
and undergraduate research isn't funded usually by grants, but 
is funded by the States, and that's our bigger challenge.
     Chairwoman Stevens. Well, we--we're right at time, David, 
so I'm going to stop there, but I will loop back at the end 
there on that first question. And then, with that, I'm going to 
pass it over to Dr. Baird, to keep us on time, for 5 minutes of 
questioning.
     Mr. Baird.  Dr. Mayer, in order not to get into your time, 
in your testimony you state you're leading the COVID-19 
response for the university-wide research enterprise at Purdue 
University, and I know that President Daniels has called the 
school back, and the students, they have had quite a challenge, 
and made a tremendous effort over the summer to bring the 
students back. So would you briefly discuss some of the key 
aspects of Purdue's response, and how you're coordinating these 
all across Purdue's multiple campuses?
     Dr. Mayer. Thank you, Ranking Member Baird, for asking 
about the integrated response. It has--I think I begin by 
saying that I think for most of us involved in the response 
we--and, as you probably say, the--a COVID day is equivalent to 
about a week or normal time, so it has been a very intense and 
integrated response. The timeline for the research response did 
move quite differently than the academic response. We ramped 
down over a course of 3 weeks, as we--as I indicated, shut down 
or ramped down activities remaining with critical research 
activities. We were fortunate, in the State of Indiana, that we 
were able to maintain a fairly large level of activity. We had 
over 400 labs that were able to continue to work at reduced 
capacity.
     And one thing that I'd really like to emphasize, I think 
this came up before, is that our entire enterprise, from our 
faculty to our students, they are flexible and agile, and 
they've worked incredibly efficiently to make the best of a 
very bad situation, spending the 3 weeks, as we gave them 
advance warning about the ramp down, trying to wind down 
experiments, collect data so that they could continue to work 
efficiently for what was, at that point, an undefined period of 
time. But I think that that has really been beneficial in 
ensuring that there was some degree of continuity. We've 
pointed out that oftentimes missing critical--a lab member can 
really disrupt the research, and that has definitely been the 
case.
     Briefly turning our attention to the ramp up, it really 
was a whole of university approach, including the other 
campuses, and that we had to, as the research enterprise--it's 
not simply about the research labs. And one thing that I'd like 
to point out is that we oftentimes think of research labs as 
people in white coats next to wet benches, but in a--in our 
research enterprise, recall that we are really the feeder to 
all industry sectors. What that means is everything from 
agriculture, people working in the field, to people conducting 
biomedical research, all the way to doing engine research, and 
those labs are all distinct. So through this process we worked 
with, as Dr. Walsh pointed out, our individual groups in order 
to customize the safety measures that they needed to put in 
place so that we could meet the safety criteria so that our 
faculty and our students could come back and continue the very 
important work that they're doing.
     We focused on continuing to de-densify campus, and so even 
though we have moved to re-open labs, and I did do a poll of 
our Big Ten, the range of opening right now is everywhere from 
50 percent to providing access to labs, but that does not mean 
that the labs look the way that they did before. We're 
operating--many are operating remotely. We are asking our 
students, whenever possible, to work remotely, and we have to 
reduce the overall capacity at any given time, so that's really 
changing the way that we're doing work. We're moving into what 
we're calling the new pandemic normal, and so the amount of 
effort--I think this was an earlier question. COBRA did a very 
interesting study, and projected that the cost of doing 
research under the new pandemic normal, under these modified 
operating conditions, will be higher than previously, so we 
need to take all of these measures into consideration. But it 
has been a whole of university approach. There's not a single 
group that we haven't worked with, and I just really want to, 
once again, recognize all of the tremendous faculty, and 
students, and post-docs for all of the efforts, and trying to 
make the best out of a very bad situation. Thank you.
     Mr. Baird. I appreciate you remind me of the term de-
densify. That's what we use in this situation, de-tensify. So I 
yield back.
     Chairwoman Stevens. Great. And, with that, recognizing 
Chairwoman Johnson for 5 minutes of questions.
     Chairwoman Johnson. Thank you very--am I muted? Can you 
hear me?
     Chairwoman Stevens. Yeah, we can hear you just fine.
     Chairwoman Johnson. OK. Thank you very much. I guess I 
would like to point this question to all of our witnesses, but 
most especially to Mr. Muzzio. I'm very concerned about the 
potential loss of talent due to the contraction of the academic 
work market. The unprecedented financial strain on universities 
has led some institutions to implement hiring freezes, which 
threatens to derail recent graduates and post-docs at a 
critical point in their career. This potentially irreversible 
loss of talent from the research pipeline could have lasting 
negative consequences for the U.S. innovation and economic 
competitiveness. Can you talk about what is needed to help the 
recent Ph.D. recipients weather this crisis? And I know that 
several Members of the Committee have introduced this bill to 
establish a new $250 million fellowship program at the National 
Science Foundation. Could you also give us some thoughts on 
this bill and the Supporting of Early Career Researchers Act? 
So let me--I'd like to hear from all of you, but I'd especially 
like to hear from Mr. Muzzio.
     Mr. Muzzio. Thank you very much for that question. So I 
will say that I definitely support, and I know that the 
Carnegie Mellon Graduate Student Assembly, and the MIT 
(Massachusetts Institute of Technology) Graduate Student 
Council, both support this bill. And I think that it will 
certainly allow these fine students, who are, for one, as I 
said, very good at what they do, as they are the expert in 
their field, but also they are struggling to graduate. And so--
I'll get to that point in a second, but if they are able to 
take this money with them and be funded through the NSF, and 
bring themselves to a different lab, this will certainly help 
them, there's no question about it. And they will be able to--I 
think that that will open up doors, as I said.
     But, to kind of go back to my earlier point about them 
struggling, one student in particular reached out to me and was 
telling me that he's trying to graduate. It's already been 
pushed--his graduation date has already been pushed back by 6 
months or so, and--or, sorry, about 4 months, and he's trying 
to get data by going into the lab about once a week, which 
usually he's working 6 days a week, and then, on top of that, 
he's having to train students in an emergency way because 
during the whole summer he was unable to train his students, 
who are being introduced into the lab. And so now he's looking 
at the situation as, one, where will I go after I graduate, 
with less data than I want to, with less papers than I want to, 
which is the fundamental going into the next step, but also how 
will I leave my lab in a good situation?
     Chairwoman Johnson. Thank you.
     Dr. Mayer. If I may?
     Chairwoman Johnson. Next witness.
     Dr. Mayer. Congressman Johnson, this is Theresa Mayer----
     Chairwoman Johnson. Yes.
     Dr. Mayer [continuing]. From Purdue University. I want to 
add a point that I think is very important to make, and you 
made earlier, which is, if we look at the downstream 
opportunities currently for the academic enterprise, polling 
all of the Big Ten, and this is not uncommon, we are largely 
under a hiring freeze scenario for new faculty, and so the 
pipeline, the opportunities, the downstream opportunities, are 
simply not there. The different industry sectors are being 
impacted differently, some continuing to hire, while others not 
in a position to hire, and so the support, particularly of the 
Early Career Researchers Act, is an essential part of the 
solution to ensure that we maintain continuity and provide 
opportunities to weather the storm, and allow our enterprises 
to recover to provide those downstream opportunities for our 
best and brightest to continue in that pipeline.
     Chairwoman Johnson. Thank you very much. Any further 
comments?
     Dr. Walsh. I'll keep mine very short. This is a critical 
time in people's careers, when they're just finishing their 
Ph.D., and having the support that is in the Supporting Early 
Career Researchers Act is really exciting, and will help an 
incredible number of students who have put an incredible amount 
of time into their STEM education, and allow them to move 
forward, and really provide the return on investment that the 
U.S. Government and the taxpayers have already put into each of 
these folks.
     Chairwoman Johnson. Thank you very much. I yield back. 
Thank you.
     Chairwoman Stevens. Great. Thank you, Chairwoman Johnson. 
With that, we'll recognize Ranking Member Lucas for 5 minutes 
of questions.
     Mr. Lucas. Thank you, Chair. Dr. Walsh, in your testimony 
you emphasized the need for U.S. research relief funding to 
maintain the continuality of research across disciplines, to 
maintain the flow of talent from within and to the U.S., and to 
continue to fuel innovation in vital national prosperity and 
security. You also mentioned that foreign government investment 
in research has not halted, but, in fact, has increased in many 
countries during this time. Could you speak to how China's 
research enterprise is recovering from the crisis, and, while 
you're thinking about that, also elaborate on how the pandemic 
would impact global competitiveness if we see dramatic shifts 
in research investments around the world.
     Dr. Walsh. Representative Lucas, that's--those are great 
questions. Regarding China, I would note that Xi Jinping gave a 
talk within the last few weeks, and he said that China must 
make breakthroughs in core technologies as quickly as possible, 
and he was making that statement in regard to the changes that 
occurred in the global landscape, in part due to COVID, and in 
part due to international relationships. There's a history 
within China of taking those statements and turning them into 
action, and I think that none of us would be surprised to see 
that those actions move forward. Regarding China, I think we 
will absolutely see activity. I don't, frankly, know what 
they're doing right now, but it is clear that that messaging--
that that was clear messaging that came out of the leadership 
in China.
     I think you're also going to see a time when there are 
very heterogeneous responses to COVID-19. Certainly one of the 
things that we have seen in the United States is that different 
universities have different responses to COVID-19. You've got a 
couple of them represented here, and, as Dr. Mayer has stated, 
within the Big Ten, and actually across the major research 
universities. You know, she and I have done a lot of--had a lot 
of conversations with folks, and seen many different ways of 
doing things. Some of these universities are going to pick 
paths that move them forward quickly. By the same token, I 
think you're going to see countries that look at the landscape 
here and decide how much of an opportunity there is to advance 
their research, which is what the point of this conversation is 
about, and their economies. So the question is, how much of 
this is an opportunity to move forward, and how do we move that 
forward? I must applaud Congress in moving forward with the 
RISE Act, which will allow the research that has already been 
funded to be completed, and it won't stop the research that has 
been proposed from moving forward also. I'll yield to others.
     Mr. Lucas. Dr. Mayer and Dr. Walsh both on this question, 
speaking of the nature of universities, I'm a land grant 
university graduate, very proud of that, from Oklahoma State 
University. Given that both Purdue and the University of 
Illinois are land grant institutions, can you elaborate on the 
role they played in supporting their communities as they battle 
coronavirus, and how your institutions have continued to serve 
community engagement during these trying months? Because, after 
all, it's research, it's education extension, the land grant 
principles. Either one of you.
     Dr. Mayer. Thank you, Chairman Lucas. I really appreciate 
you asking that question. The engagement portion of our mission 
is an essential--the third leg of the stool, so to speak, for 
our land grant institutions, and we've continued to support, in 
multiple ways, including through our agricultural extension, 
working hand in hand with our communities around the State, 
continuing to ensure that--understandings from disruptions due 
to COVID as individual farmers are concerned about supply chain 
disruption. We also have a manufacturing extension program that 
is very actively engaged. They worked hand in hand with small 
manufacturers across the State to basically transition to being 
able to help to supply critical PPE to the country. We also 
have a health care advisor team that is working with 
communities. Particularly, I think, what we're finding is that 
during the COVID time we are finding increased use of opioids, 
and they work hand in hand with our public health officials in 
individual communities to really try to engage in educational 
opportunities as we think about the interrelation between drug 
addiction, mental health, and our--the current crisis that 
we're facing.
     Mr. Lucas. With that, Chair, I see my time's expired. This 
has been a very worthwhile hearing, and I remind my colleagues 
the U.S. Congress controls the purse strings. Yield back.
     Chairwoman Stevens. Thank you. And, with that, the Chair 
is going to recognize Dr. Bill Foster for 5 minutes of 
questions.
     Mr. Foster. Well, thank you, Chairwoman Stevens, and 
Ranking Member Baird, and our witnesses for joining us today. 
And I'd like to continue Ranking Member Lucas's observations 
about the importance to note the contributions that university 
researchers are making to combat COVID-19 in their communities 
and their States.
     Dr. Walsh, the University of Illinois system has developed 
a comprehensive approach, which is called SHIELD, that includes 
rapid saliva tests that are developed at Urbana-Champaign, and 
is being performed on as many as 15,000 students per day. And I 
was especially at how quickly this has been deployed to other 
smaller institutions, such as Northern Illinois University, 
which I believe at least one of our witnesses has some history 
with. And, you know, although the SHIELD Program itself has 
been entirely funded by the U of I, and indirectly by the much-
maligned State of Illinois, Federal grants helped develop the 
ecosystem that allowed for this rapid development. Dr. Walsh, 
can you explain how Federal funding contributed directly and 
indirectly to this breakthrough, and how the Federal Government 
can help expand SHIELD and programs like it?
     Dr. Walsh. Representative Foster, thank you very much. 
You're right, we developed very quickly a saliva-based test for 
COVID-19 that has sensitivity and specificity that's sufficient 
to help us mitigate the spread of the virus, that has a 
turnaround time that allows us to isolate and quarantine folks 
quickly, that we can do in reasonably high frequency, so it's 
low cost, and it's non-invasive because it's saliva-based. The 
whole process started in late March, actually. These were 
federally-funded researchers who were doing work on other 
viruses, or a variety of different chemical reactions, and they 
pivoted their work to develop a new way of doing polymerase 
chain reaction, PCR-based measures of the nucleic acids within 
the viruses. That work, as I said, pivoted, and within a month 
or so, using labs that had been federally-funded for a long 
period of time, came up with a new method of isolating the RNA 
within those viruses.
     Then there was a question of where does the University of 
Illinois at Urbana-Champaign put a lab that can do human 
testing? And the answer was, well, we have a veterinary school, 
we can do it there. So there was a veterinary lab that had been 
federally-funded for quite some time that was repurposed for 
human testing, and that's where the tests are being run. Fast 
forward to now, as you mentioned, we're testing up to 15,000 a 
day. The average is actually 70,000 a week, and we're catching 
very early in the process folks who are usually asymptomatic--
not usually, almost entirely asymptomatic, but carriers of the 
virus, and we're isolating them from the rest of the community, 
contract tracing, and moving their contacts to quarantine. 
We've spread this across other universities, the publics, the 
R-2s and R-3s across our State, and we are now talking also 
with communities across the State of Illinois. So, going back 
to the land grant mission, we view this very much within our 
land grant mission to spread the use of this technology quickly 
across the State so that others could take advantage of the 
ability to detect COVID-19, too----
     Mr. Foster. Well, thank you, that's a real success story 
that we shouldn't be shy about letting the world know about. 
You know, I am also very worried that we're going to see a so-
called K-shaped recovery, where the wealthy institutions with 
billion-dollar endowments recover relatively quickly, while the 
smaller, less wealthy universities get left behind. And, you 
know, Dr. Walsh, you actually published an opinion column that 
touched on this, about how the pandemic is transforming the 
entire research ecosystem, and so I was interested in, you 
know, what are some of the implications of that transformation, 
and what should we do--in Congress be doing about this?
     And, you know, in particular, and this is, I guess, a 
question for any witness who wants to take it, you know, given 
the disparate impact of COVID on--in different fields, you 
know, for example, researchers in computational biology, field 
biology, or laboratory biology would be impacted very 
differently by COVID, is it better for Congress and the 
agencies to distribute relief directly as grants to researchers 
and students, or to contribute the relief funds to research 
institutions, and let the institutions allocate that money to 
their researchers and labs? Or do we do a mixture of both? Does 
anyone have an opinion on what the best approach is there?
     Dr. Walsh. I see the time that we have here, and I'm going 
to keep this----
     Mr. Foster. OK.
     Dr. Walsh [continuing]. Short. I think you give it to the 
researchers. I think that, you know, you give it, through the 
agencies, to the researchers, and, for the most part, that's 
the best way to move forward on this. But I would love to hear 
others' opinion.
     Mr. Foster. OK. Thank you, and anyone who wants to respond 
for the record, please feel free, because we're faced with that 
kind of decision all the time in these emergency relief 
programs. Thank you, yield back.
     Chairwoman Stevens. I swear 5 minutes is not the same 5 
minutes over virtual as it is in the hearing room. It's a 
shorter 5 minutes, so thank you, Bill, that was--those are 
great, and we do want to keep gnawing on that, so why don't we 
try and get that for the record? But, with that, we've got a 
couple other Subcommittee Members in the queue, and we're going 
to start with Congressman Balderson. 5 minutes of questions.
     Mr. Balderson. Thank you, Madam Chair Stevens. Good to see 
you this afternoon, early afternoon. Thank you, panel, for 
being here. My questions are for the whole panel, and anybody 
can just take the liberty to jump in, Columbus is home to one 
of Nation's largest and most vital research institutions, the 
Ohio State University (OSU). It is essential to my district, 
and the Nation, that researchers at OSU are able to continue 
their great work in partnership with the Federal Government and 
private partners. I'm hoping you all could tell us a bit about 
how each of your institutions have been navigating this crisis 
from the beginning. In terms of strategies to overcome the 
challenges posed by COVID-19, what have you found that has 
worked, and what has not worked? I believe the collective 
knowledge of your experiences could ensure the entire research 
apparatus continues to succeed in these trying times. And any 
of the panelists may start off.
     Mr. Muzzio. I can give a little bit of background what it 
was like to be in the lab. So, upon returning from the canceled 
March meeting, I was working in the lab, trying to do as much 
as I could, knowing the impending shutdown of the lab, and we 
eventually had to close all of the labs and go home, and work 
from home for about two or so months. And during that time, 
apart from the lack of productivity, we started to write up 
documents and order PPE equipment just in preparation for all 
of the things that we were going to have to do in order to be 
safe.
     So we, my lab, were approved to be one of the first labs 
back onto campus, and that--the way that we did that is by 
applying, and it went through many sectors of people who are 
experts in this sort of information, which I can get more 
information later, but not right now, of who they are. But we 
went through all of them, and we were finally approved, and so 
ultimately we are now in the lab, and there's other labs that 
are back, but we all have our protocols, and we're all, you 
know, signing into different--or you have to sign in to all the 
different doors and everything like that to ensure that people 
are safe, and to minimize this risk. But there's always that 
impending potential for the lab to shut down again. So that's 
my experience----
     Dr. Mayer. I'll just add a----
     Mr. Balderson. Thank you.
     Dr. Mayer. I'll add a few words. I described our 
experience at Purdue. During my oral remarks, I underscored the 
strong collaboration. That was a strong collaboration. Regular 
bulletin boards, our listservs, were lighting up virtually 
every minute for periods of time, particularly during the ramp 
down. That included the Big Ten Academic Alliance, and so in 
regular contact with my counterpart at Ohio State and other 
universities. And, in fact, we iterated with one another to 
inform and learn as different people were in different stages 
of both the ramp down as well as the recovery.
     I also want to underscore the importance of the APLU, the 
American--well, the Association for Public and Land Grant 
Universities, which is a network of public institutions across 
the country that includes R-1s and R-2s, and I think, through 
that network, once again, we were able to share best practices, 
and so it's been a highly collaborative and engaged process, 
and continues to be. When I was preparing, I very rapidly 
reached out to the Big Ten, and had immediate responses in 
terms of just being able to share where they are in the 
recovery.
     Mr. Balderson. Thank you.
     Dr. Walsh. I want--just a couple quick things. Actually, 
virtual meetings are interesting, in the sense that they work, 
in a lot of ways, really well. You can go and you can listen to 
a talk that you wouldn't normally be able to go to because it's 
really easy to get there, OK? There are aspects of it that 
don't work, because you can't do networking there, but there 
are aspects that work. Opening up the labs has actually worked 
really well. The coronavirus is not spreading in the labs. 
These are folks, you know, we have a grad student here, who 
know how to put on protective equipment, and know how to use 
it, and you don't get a lot of spread of the virus. What 
doesn't work for those students, especially for the new 
students, is training them. It's hard to stand shoulder to 
shoulder with a brand-new student and teach them how to turn a 
knob, how to, you know, how to operate a piece of equipment, 
and especially how to do that safely.
     The other thing that's not working really well is core 
facilities. I mentioned that earlier. Representative Foster 
asked where should the money go, researchers or institutions? 
Core facilities. A nanofabrication lab, you have to have 
funding for that that goes directly to the institution to fund 
that sort of thing. All right.
     Mr. Balderson. Thank you all very much. Thank you, 
Chairwoman Stevens.
     Chairwoman Stevens. Yeah, great question, great responses. 
And, with that, we've got Congressman Anthony Gonzalez here for 
5 minutes of questions.
     Mr. Gonzalez. Hello. Thank you, Madam Chair, for convening 
this hearing, and thank you, everybody, for all that you're 
doing during this pandemic. Certainly a unique time. I wanted 
to start with Dr. Walsh, if I could, or anybody who has insight 
on this. It's obviously been a massive disruption, from a 
research standpoint, but, you know, what are we learning from 
other countries with respect to how to continue the research 
enterprise, and are we falling behind? I think it's obvious 
that, you know, our research enterprise is being damaged by the 
COVID-19 pandemic in certain ways, but, relative to our 
competitor nations, how do you feel we're stacking up, and what 
can we learn from them, in terms of overcoming these barriers, 
and getting back on par?
     Dr. Walsh. So, you know, there's a couple of answers to 
that question. One is, frankly, it's early to tell exactly what 
every country is doing. I'm not sure you were in the room 
earlier, I mentioned that China is looking to move forward in 
funding of core technologies, which generally I would take as 
AI, quantum----
     Mr. Gonzalez. Yeah.
     Dr. Walsh [continuing]. Those sorts of technologies. And, 
you know, I suspect what you will find is that other nations 
will put substantial resources at this time into technologies 
that will move their ecosystems, in particular their innovation 
ecosystems, their economic ecosystems, and their national 
security, that they will move those forward. That's what I 
expect.
     Mr. Gonzalez. Thank you. And, you know, I think you 
highlighted a longstanding issue, which is one that I've been 
talking about in this Committee for the last year and a half, 
or almost two years now, which is chronic underfunding, and 
lack of focus, in my opinion, from the Federal Government with 
respect to how we fund our research enterprise. I'm somebody 
who wants to significantly increase the funding that we provide 
to the basic research space because it's, you know, it's my 
opinion that that's an investment, that's money incredibly well 
spent. And, you know, in a world where we're competing on every 
major technological innovation with the Chinese Communist 
Party, those are fights that we need to win, frankly, and so I 
appreciate what you said there.
     Also in your testimony you mentioned the need, or not the 
need, but the necessity to reimagine operating assumptions with 
respect to our research enterprise as a result of COVID-19. 
What could you share in that vein that we all should know 
about, and, you know, what learnings might we be able to pass 
on to the broader research community as a result of some of 
these sort of changed operating assumptions, if you will?
     Dr. Walsh. Yeah, I don't think any of us would've imagined 
that we would hold a congressional hearing in the way that 
we're doing this.
     Mr. Gonzalez. Yeah.
     Dr. Walsh. I think there are a lot of things that we just 
couldn't imagine doing, you know, the better part of a year 
ago. We would've all just said this is crazy. I mentioned 
earlier you could do virtual meetings. Dr. Mayer and I are 
involved with University-Industry Demonstration Program, UIDP. 
It sprung out of the National Academies a few years ago. They 
very quickly pivoted to a virtual meeting, in March and it went 
really well. And what went well about that is that people could 
attend that meeting who couldn't normally attend because their 
institution didn't have enough funding for them to attend.
     So I think what we're going to see is we're going to see 
remote meetings, you're going to see remote seminars. You're 
going to also see some remote experiments that are done in ways 
that couldn't be done previously. You know, you're going to 
have a collaborator someplace that you're going to send a 
sample to, and they're going to set it up, and you're not going 
to have to travel, and actually things are going to get more 
efficient because of that. We wouldn't have necessarily thought 
of that previously, but I think we're now in a place where 
we're being forced to think differently, think outside the box, 
and folks aren't saying, you're crazy to do that. Frankly, 
we're in a position where we're allowed to do this. So, you 
know, back to one of the points I've been making, there's real 
opportunity here, and we have to figure out what those 
opportunities are.
     Mr. Gonzalez. Great. Thank you for that, and I agree, 
although I will say in person hearings are significantly more 
effective, in my opinion. But, that being said, I will yield 
back. Thank you.
     Chairwoman Stevens. It's because the 5 minutes goes 
quicker over virtual, so----
     Mr. Gonzalez [continuing]. But you're probably right.
     Chairwoman Stevens. No, great questions by our 
Subcommittee Members. And, you know, listen, this is a popular 
topic, and everyone's all excited about this legislation we're 
doing, and these great topics, and this is why we're on this 
Committee. And now we've got 5 minutes of questions from 
Congresswoman Bonamici of Oregon here, so pass it over to her.
     Ms. Bonamici. Thank you so much, Chairwoman Stevens, and 
thanks to the Ranking Member, but thank you to all the 
witnesses. I strongly support the bipartisan bills we're 
talking about today, the RISE Act, and the Supporting Early 
Career Researchers Act, and I'll continue to advocate for their 
passage, hopefully in a coronavirus relief package.
     But I wanted to talk--Mr. Muzzio, thank you so much for 
being here and sharing your perspective. I recall a few years 
ago talking with a Ph.D. candidate who was working with NSF and 
NASA (National Aeronautics and Space Administration). Because 
of the 2013 government shutdown, she missed the window in which 
to launch her balloon from Antarctica, and her research was set 
back a year. That shutdown lasted 17 days, so if you multiply 
that times--so much longer now that we've been dealing with the 
pandemic--I've been hearing from graduate students, like you, 
who have been forced to set aside their research because of the 
pandemic.
     And this spring, my alma mater, the University of Oregon, 
the physical distancing requirements forced graduate students 
in education to halt observations in classrooms that are used 
to inform their research. We had archaeology students lose the 
opportunity to participate in scheduled summer digs. Those 
students aren't alone. According to the recent estimates from 
the Council on Government Relations, research universities are 
seeing somewhere between a 20 to 40 percent research output 
loss just between March of this year and February of next year. 
So in your testimony you talked about how these disruptions to 
the academic experience have the potential to reduce the number 
of people who continue in science, ultimately leading to the 
loss of valuable talent. So how can Congress better support 
graduate students in not only restarting your research, but 
also restoring confidence in the Federal research enterprise to 
support the next generation of students?
     Mr. Muzzio. Thank you very much for that question, and 
thank you for the support on those two bills. And I think that 
the--currently, the thing that will have the most immediate and 
long-lasting support for graduate students who need it the most 
right now will be to support those two bills, the RISE Act, as 
well as the Supporting Early Careers Researchers, and--or Act. 
And, you know, to support that yourself, but also to get other 
people on board with it as well, and--so to have these 
discussions and, like, hold hearings like this. And I thank you 
so much, and--for having this, for allowing us to have our 
voice heard.
     Ms. Bonamici. We appreciate your voice very much. And I 
saw a lot of heads nodding in the affirmative when my colleague 
was talking about increasing the funding for Federal research. 
Absolutely agree with that.
     Dr. Walsh, Oregon State University is one of the Nation's 
leading oceanographic institutions. It operates an oceangoing 
research vessel program, and prior to the pandemic, OSU 
scientists were scheduled to sail three international ocean 
discovery program expeditions this year on an NSF vessel. All 
expeditions are postponed at least a year. That creates a sort 
of domino effect for delays and cancellations for in demand 
research that's already been scheduled. So, in your testimony, 
you noted that most researchers have had their work temporarily 
halted, derailed, and some regressed. What are the consequences 
of disrupting the continuity of research in the short term? How 
will those disruptions affect our ability to solve the world's 
most challenging programs--or, excuse me, like the climate 
crisis, for example, in the long term?
     Dr. Walsh. Yeah. So, you know, there's a lot of 
heterogeneity here, but in oceanography--and just as 
background, I grew up in Woods Hole, so there's an 
oceanographic institution there--what ends up happening is they 
don't go out, and there's almost always a seasonal component to 
that work, and therefore, just as your example of a student not 
being able to launch a balloon at a particular time period, 
you're going to lose either a significant amount of time 
greater than what you would think, or a whole year for that 
sort of work. So, in those sorts of cases, the loss is really 
significant. And this is why the RISE Act would be tremendously 
helpful, and the Supporting Early Career Researchers Act would 
be really helpful, so that you have continuity of these 
programs.
     Ms. Bonamici. Thank you. And, as the clock ticks down, Dr. 
Walsh, I want to thank you for your study about the unequal 
effects of COVID-19 on women, and you note that female 
scientists with young children experienced a substantial 
decline in time devoted to research. I've been working on this 
issue, so I'm glad you acknowledge the importance of addressing 
the need for affordable child care. It comes up in economic 
development conversations. We won't restart our economy without 
access to child care. It's something the House has recognized, 
we passed the Childcare Is Essential Act. And I know that 
time's about to expire, so if you can't get an answer in, I'm 
going to ask if you would submit for the record, do you see a 
role for higher education institutions in helping to fill the 
need for child care as a way to help close the gender gap in 
science?
     Dr. Walsh. Short answer, yes.
     Ms. Bonamici. Terrific, thank you. Thanks so much, and I 
yield back. Thank you, Madam Chair.
     Chairwoman Stevens. Great. Great to have you here. And, 
with that, the Chair's going to pass it over to Congressman 
Garcia for 5 minutes of questions.
     Mr. Garcia. Thank you, Madam Chair, I appreciate it. Thank 
you for the panel joining us today, very important discussions. 
I'm a proud co-sponsor of the ``Early Career Researchers Act'' 
myself, so this is of critical importance as we navigate this 
really uncharted waters. I really appreciate you guys taking 
the time. Most of my questions have actually been addressed 
already, so I'll just simply ask a question I think that Dr. 
Mayer was touching on earlier. You were mentioning, Doctor, 
effectively the second and third order effects as they touch 
adjacent industries, whether it's the agricultural businesses, 
the pharmaceuticals.
     What I'm wondering, and this is really directed to any of 
you, have you seen any telltales or indications of impacts to 
national security as the result of the strains or delays in any 
of the research that we're seeing at any of these major 
universities? The reason I bring that up is because that does 
help us provide more of an impetus beyond some of the research 
that we've been discussing here, and can help us really 
translate that to the average American when we start talking 
about how this affects frankly, our Nation's security. So I'm 
just wondering if we've seen any telltales of that, or if it's 
still too early in the development stages of some of the 
technology you're dealing with.
     Dr. Mayer. I will begin. Just as we touched on the other 
areas of research, the critical work that universities conduct 
in support of national security has been impacted as well. If 
you look at--particularly as we look at the areas--the 11 
modernization areas for the Department of Defense, I think many 
of our institutions did have that as part of our critical 
research----
     Mr. Garcia. Um-hum.
     Dr. Mayer [continuing]. Lists, so, during the ramp down, 
we worked very diligently to try to keep that research moving, 
at least in a limited capacity, so we didn't lose access to key 
facilities. We have been conducting work in hypersonics 
research, for example, and we were able to keep our wind 
tunnels operating at limited capacity to continue studies. 
Microelectronics is key to the backbone of our national 
security, so--as we're looking at all of these areas. But they 
really suffered the same level of impact, in terms of lab 
closures, in terms of delays in protocols, so it--we didn't see 
substantial differences.
     Mr. Garcia. OK, thank you.
     Dr. Walsh. So, you know, the one quick thing I would say 
is that, for national security, and the reason that we've done 
well in this country, is we have really great people who are 
involved in that, and we have really great technologies.
     Mr. Garcia. Absolutely, yeah.
     Dr. Walsh. And, you know, and so what you're getting at is 
the key component here, and that is, you know, basic research 
provides new technologies, and really great people, you know, 
the soon to be Dr. Muzzio and his colleagues at Carnegie 
Mellon, and across the country. So the two acts that are moving 
forward will help mitigate the impact of COVID-19 on 
potentially national security issue.
     Mr. Garcia. Absolutely. Thank you guys, and thanks again 
for your hard work through this very difficult time. I'm sure 
we will do everything we can to support you, and I really 
appreciate you guys taking the time there. Madam Chair, I yield 
back.
     Chairwoman Stevens. Thank you, Congressman Garcia. And, 
with that, we've got at least one more Member with questions, 
and that's Sean Casten, Congressman Casten from Illinois.
     Mr. Casten. Thank you, Madam Chair. Thank you all so much. 
Dr. Walsh, I want to follow up on some of what you talked about 
with my colleague, Mr. Foster. I think what you guys have done 
with saliva testing is awesome, but I'm wondering if you could 
personalize it a little bit for us. Am I correct, are you based 
at--on the--over on the Champaign campus?
     Dr. Walsh. I'm with the system, so I'm on all three 
campuses.
     Mr. Casten. OK. Well, for someone who is a part of that 
campus, I mean, the numbers mean something, but if you're based 
full time on that campus, whether student or faculty, how often 
are you tested?
     Dr. Walsh. Twice a week.
     Mr. Casten. And how long does it take for your test 
results to get back?
     Dr. Walsh. So the short answer right now is longer than we 
want, which is about a day. We're trying to get that down to 
about 6 hours.
     Mr. Casten. Wow. And if someone tests positive, what do 
you do, practically?
     Dr. Walsh. So when they test--when the test results come 
out, the positives are turned over to the Public Health 
Department--actually, all the data flow to the Public Health 
Department--and those are the folks who get in contact with the 
students to tell them, or faculty or staff, if they happen to 
be positive. Then there's an isolation component that occurs, 
so if the student is living in a dorm, we have dorms in which 
we can isolate them. If it's a faculty or staff member, then we 
ask them to isolate at home. We also contact trace, and that's 
done in a couple of different ways, but then those who are 
close contacts are quarantined.
     Mr. Casten. What I find sort of so cool and so depressing 
about that is that at the start of this pandemic we had a lot 
of experts testifying that we should do as a country exactly 
what you are now doing, you know, rapid testing of everybody, 
identify, isolate, contact trace. And kudos to you all for 
doing it, shame on us for not.
     You know, I know our office is working with some of you 
guys about trying to do some of the rollouts. Can you help us 
understand, what is constraining your ability to massively ramp 
this up, and what, if anything, could lead you to remove those 
barriers in Congress?
     Dr. Walsh. Yeah. So we've broken up the rollout of SHIELD, 
which is what Representative Foster indicated is the name of 
this. So SHIELD is on campus. It's being rolled across the 
State of Illinois beyond the campuses, and rolled out beyond 
the State of Illinois so there's three different levels at 
which we're doing it. The biggest challenges that we have are 
some supply chain issues, in particular with equipment, and 
also, frankly, just training of people to stand up this whole 
operation. It is really not just testing. It is an entire 
program where you figure out who you want to test, you arrange 
for them to be tested, which means you have to go collect a 
specimen from them, and then you have the data--so you have a 
chain of custody all the way from the beginning, when they walk 
in before you, to when you get the results to them, and to the 
public health officials. So, you know, the testing is just one 
of the hard parts. There are many other hard parts to this 
that, very candidly, we're learning every day how difficult 
this really is, especially when we move from a couple thousand 
a day to 15,000 a day.
     Mr. Casten. Full disclosure, when this hearing ends, I 
am--I'm off to go meet with some of your colleagues to inspect 
some labs up in Northern Illinois that might be able to provide 
at least a de-bottleneck up here for some of the community, so 
it's--let us know what we can help, and if you have thoughts on 
those bottlenecks.
     The last thing, just with the time we have left, and I 
don't know if you're--you feel sort of qualified to answer this 
or not, but, if I'm understanding right, you are doing the 
first really large scale testing of asymptomatic populations. 
Is it--maybe it's too soon, but are you learning anything about 
the virus, and how it spreads, and its dormancy from this 
population, or, if you aren't, are there things you expect to 
learn from the fact that you now are testing everybody, not 
just the people who are symptomatic or were exposed?
     Dr. Walsh. Yeah. So there were a few things that we've 
learned. Yeah, there are events--this isn't a huge surprise--
there are events that are sort of super-spreader events, and 
we've certainly seen those on our campus. I would say there's 
one other part to this, and that is we stood this up not only 
at three campuses, but also a small university in Southern 
Illinois in a relatively sparsely populated county, Bond 
County, which has about 17,000 people, and at Greenville 
University, which has about 700 folks, and they came in with 
the same positivity rate that we've seen at other places, 1 
percent, and the short version is they're not spreading within 
their campus right now. The only new positives they've had are 
people coming from the outside. So we have learned that if you 
find the people who are positive, and you remove them from the 
community, then, big surprise, the virus doesn't spread.
     Mr. Casten. From your lips to God's ears. Thank you, and I 
yield back.
     Chairwoman Stevens. Great. Well, with that, we've reached 
the conclusions of our questions, but certainly not the 
conclusion of this topic. And it's fair to say that this 
hearing's been very, very informative, and so we want to thank 
our witnesses for leaning in with us. I'd also say, to what Dr. 
Stone mentioned in his testimony, particularly around the need 
for COVID funding to support State budgets, that end up 
impacting university budgets. It's been amazing to see what--
the talent coming out of all of these research institutions, 
and the talent that one of our soon to be Ph.D.'s is bringing 
to his research enterprise, and in particular the rapid 
adjustments that our researchers have had to make, and also the 
impacts that their talents have brought to combatting COVID-19, 
or addressing COVID-19.
     Obviously it's nice to hear your overview, Dr. Walsh, and 
we've heard from Dr. Foster and, you know, at length about some 
of the work that you all are doing with the University of 
Illinois system. I would also say, even as a smaller research 
institution and university with Oakland University, it--just 
hats off to all of you. You know, we've seen OU grads form 
testing companies, and implementing different strategies across 
the country, as well as what all of you are doing as a smaller 
university, and so it's really important, to me, having had the 
experience now as a Congresswoman, and in this Committee, but 
also previous to coming into Congress, having worked with all 
of you, and--not--you personally, but your institutions, and 
remaining very excited and enthusiastic. And so we, you know, 
are going to continue to come up with the best and most 
cohesive strategies, one for human capital and our workforce 
potential, which is just such a precious asset for us here in 
the United States, and what we all care so much about. Dr. 
Baird and I were very pleased to have last year the Building 
blocks of STEM Act signed into law which we worked on together, 
and it's this joint collaboration, and the dialog that we 
insist on having in this Committee to lead to great results.
     So, with that, our record is going to remain open for 2 
weeks, and this is for any additional statements from Members, 
or questions that they might have of you, and so we'll--we can 
do some questions for the record. And thank you all so much to 
your dedication to your professions. This just--is why we're 
here doing this work, and, of course, we appreciate that it's 
very Midwestern focused, so it's nice having colleagues from 
across the country, you know, seeing what we're doing here in 
the heartland. That was not intentional at all, but it's a--
just really a testament to the work that all of you do. And so, 
with that, thank you all so much, and I'm going to close out 
this hearing, and the witnesses are excused, and the hearing is 
now adjourned. Thank you. Thank you all so much.
     [Whereupon, at 1:17 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Dr. David Stone

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Theresa Mayer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record



        Letter submitted by Representative Eddie Bernice Johnson
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        

                                 <all>
</pre></body></html>
